f

Supreme Court, U.S.
FILED

JUL 0 7 2020
No:

20 "

p

OFFICE OF THE CLERK

UJ

In the
Supreme Court of the United States
FERNANDO HERNANDEZ,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
PETITION FOR WRIT OF CERTIORARI
Fernando Hernandez
Register Number: 00130-138
FCI Ray Brook
P.O. Box 900
Ray Brook, NY 12977

PS ti

X !
p M jKf J Her, •] f

.! J

1L

c*.

QUESTIONS PRESENTED FOR REVIEW
Was Hernandez’ due process rights violated when the district court abused
its discretion in relying on Hernandez’ domestic violence past in sentencing
him on his current drug trafficking offense.

ii

I*

PARTIES TO THE PROCEEDINGS
IN THE COURT BELOW
In addition to the parties named in the caption of the case, the following
individuals were parties to the case in the Unite States Court of Appeals for the
First Circuit.
None of the parties is a company, corporation, or subsidiary of any company or
corporation.

iii

■ V*

TABLE OF CONTENTS
Questions Presented for Review

11

List of Parties to the Proceedings in the Courts Below

111

Table of Contents

IV

Table of Authorities

v

Opinions Below

2

Statement of Jurisdiction

2

Constitutional Provisions, Treaties, Statutes, Rules, and Regulations
Involved.........................................................................................

2

, Statement of the Case

3

Reasons for Granting the Writ

8

Was Hernandez’ due process rights violated when the district court abused
its discretion in relying on Hernandez’ domestic violence past in sentencing
him on his current drug trafficking offense.
Conclusion

12

Appendix

A-l

iv

TABLE OF AUTHORITIES

United States v. Marks, 864 F.3d 575 (7th Cir. 2017)...............

11

United States v. Moreno-Padilla, 602 F.3d 802 (7th Cir. 2010)

11

United States v. Robinson, 164 F.3d 1068 (7th Cir. 1999)........

12

United States v. Sunmola, 887 F.3d 830 (7th Cir. 2018)...........

11

United States v. Tucker, 404 U.S. 443 (1972)............................

10

Regulations

18 U.S.C. § 3553(a)

7, 10

21 U.S.C. § 841(a)(1)

3

21 U.S.C. § 846

3

21 U.S.C. § 851

4

„ 28 U.S.C. § 1254(1)

2

28 U.S.C. § 1654(a)

,2

Rules
Supreme Court Rule 10

8

Supreme Court Rule 10.1(a)

8, 10

v

No:
In the
Supreme Court of the United States
FERNANDO HERNANDEZ,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
PETITION FOR WRIT OF CERTIORARI
Fernando Hernandez, the Petitioner herein, respectfully prays that a writ of
certiorari is issued to review the judgment of the United States Court of Appeals
for the First Circuit, entered in the above-entitled cause.

OPINION BELOW
The opinion of the Court of Appeals for the First Circuit, whose judgment is
herein sought to be reviewed, is unpublished United States v. Hernandez, 18-1209
(1st Cir. March 27, 2020) is reprinted in the separate Appendix A to this Petition.
STATEMENT OF JURISDICTION
The Judgment of the Court of Appeals was entered on March 27,2020.
The Jurisdiction of this Court is invoked under Title 28 U.S.C. Section 1654(a)
and 28 U.S.C. Section 1254(1).
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES AND RULES INVOLVED

v<;

The Fifth Amendment to the Constitution of the United States provides in
relevant part:
v

No person shall be held to answer for a capital, or otherwise, infamous
crime, unless on a presentment or indictment of a Grand Jury... nor shall
any person be subject for the same offense to be twice put in jeopardy of
life or limb, nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due
process of law.

Id. Fifth Amendment U.S. Constitution

2

STATEMENT OF THE CASE
A. The Offense Conduct
Hernandez was charged in a one-count indictment with a count of conspiracy
to distribute and possess with intent to distribute heroin and fentanyl, in violation
of 21 U.S.C. § 846,21 U.S.C. §§ 841(a)(1), 841(b)(1)(C). PSR ^4. As described in
the PSR the offense conduct related to a wire investigation that revealed
Hernandez and his co-conspirators were selling heroin and Fentanyl in and around
Rhode Island and Massachusetts. PSRfflf 8-78. Specifically, the Drug Enforcement
Administration (“DEA”) intercepted Hernandez’s cell phone from June 22 to July
21,2016, and from August 1 to August 30, 2016. During those two months,
investigators intercepted drug-related calls. Hernandez would arrange for the
transportation of the drugs from Providence to Taunton, and then coordinate the
delivery of the drugs to a dozen or more regular users who also distributed drugs.
B. The Guilty Plea
On November 6, 2017, Hernandez appeared before the Honorable Leo T.
Sorokin in the District of Massachusetts and pleaded guilty to the Indictment
described above, without a plea agreement. At the outset of the plea, counsel for
Hernandez noted that, in earlier discussions with the government, it was
contemplated that the low end the sentencing range might be 108 months’
imprisonment, which was acceptable to Hernandez. However, counsel noted, later

3

discussions revealed that Hernandez was a Criminal History Category VI, and thus,
the range would be 188 to 235 months. Counsel for Hernandez then asked
the district court to explain to Hernandez the consequences of pleading guilty
and the possible sentences, including the possibility of a sentence higher than 108
months. Just before doing so, the government explained to the court and
defendant that it was contemplating filing a superseding indictment that charged a
10-year mandatory minimum, and/or a notice under 21 U.S.C. § 851, which would
increase the mandatory minimum to 20 years. The district court then explained
Hernandez’s right to a trial, the need for a presentence report, the district court’s
right to disagree with the parties’ Guidelines calculations and make its calculation.
When Hernandez stated that he “came today to plead guilty for 108 months,” the
court explained that it could not tell him what sentence he might receive until the
Presentence report came back and after he heard from counsel at a sentencing
hearing. The court also informed Hernandez that if he pleaded guilty
and his sentence was longer or harsher than he anticipated or different than what
his counsel predicted, “those facts alone are not a basis to withdraw your plea of
guilty.”
The court also noted the possibility of Hernandez’s sentencing exposure
being increased based on the government’s potential to seek a superseding

4

indictment with a mandatory minimum and to double that minimum with a § 851
notice. Counsel and Hernandez then conferred, and Hernandez decided to move
forward with the guilty plea. The court then had the government state the
maximum penalties and the mandatory minimums, and the court repeated them,
including supervised release, fines, forfeiture, and special assessment. The court
also explained its obligations to calculate the Guidelines range and to consider that
range and other factors. When Hernandez stated that he had not discussed the
operation of the Guidelines with his lawyer, the district court took a break in the
proceedings and asked counsel to do so. After approximately 30 minutes,
the proceedings resumed and the district court confirmed that Hernandez
discussed the Guidelines with his counsel, was satisfied with his counsel and
wanted to plead guilty. The court then described the operation of the
*v

presentence report and the Guidelines, again stating that he could not withdraw his
plea if the court did not sentence him within the range his lawyer might have
predicted.
C. Sentencing Hearing.
Hernandez was sentenced on February 26, 2018.3 A64. At the outset of
sentencing, the court confirmed that he had received the sentencing memoranda
and PSR. Counsel for Hernandez also supplied the court with additional
copies of a supplemental memorandum, which included two letters on the

5

defendant’s behalf. The court then confirmed that Hernandez had not
raised any objections to the presentence report and that the government’s one
the objection regarding Hernandez’s citizenship was resolved. The court then
described the sentencing calculations from the PSR, namely, a base offense level
of 30, four points added for being a leader, three points less for acceptance, leading
to a total offense level of 31, and that his Criminal History Category was VI, based
on 26 criminal history points. The parties agreed with these calculations. The court
also noted and confirmed with the parties that that, although probation determined
that Hernandez was a career offender under the guidelines, the court was not
applying the enhancement because the normal guidelines calculation was higher.
Accordingly, the court stated that the guidelines range was 188 to 235 months’
imprisonment, three years supervised release, a fine range of $30,000 to $1
million, no restitution, and a $100 special assessment. The government spoke
about its request for a sentence of 204 months’ imprisonment and noted that it was
based on the seriousness of the offense and the defendant’s serious criminal
history. The government went on to explain that Hernandez was supervising a
drug trafficking operation in Taunton that, daily, sold 20-50 grams of heroin and
fentanyl at a time to customers who were demonstrably and severely addicted to
those opioids. The government also revealed its disbelief of Hernandez’s claimed
severe addiction to drugs, given what the surveillance revealed about his ability to

6

operate his drug distribution network “on a daily basis, with calls coming and
going throughout the day.” The government then referenced Hernandez’s
“remarkable” criminal history, stating that Hernandez had double the points “it
takes [] to get the highest criminal history category.” Counsel for Hernandez
argued that the government’s recommendation was excessive for an individual like
Hernandez. A73. He noted Hernandez’s difficult upbringing, which included drugs
in the home, his substance abuse issues, as well as the fact that Hernandez had
never previously been charged with narcotics trafficking. Counsel also noted how
Hernandez’s family loved supported him, as reflected by their letters and presence
at sentencing.
The court then detailed the basis for the sentence, noting the guidelines, the
applicable guidelines range, the 18 U.S.C. § 3553(a) factors, the “beautiful” letters
from Hernandez’s family, the fact of Mr. Hernandez’s bringing Arias into the
conspiracy, his violence against women, and the nature of the offense, which was a
“sustained, organized” drug distribution network. The court also noted
Hernandez’s personal history, including his substance abuse, his lack of any
regular employment, his long criminal history. The court noted that it “did not
impose this sentence lightly,” that it was imposed based on “the totality of the
circumstances, under § 3553,” and that it was a “hard” sentence, but a “just and
appropriate one.” The court imposed a guidelines sentence of 188 months’

7

imprisonment, to be followed by for 3 years supervised release, and a special
assessment of $100.
REASONS FOR GRANTING THE WRIT
THIS COURT SHOULD ISSUE A WRIT OF CERTIORARI BECAUSE
THE UNITED STATES COURT OF APPEALS FOR THE FIRST
CIRCUIT AND THE DISTRICT COURT HAVE DECIDED A FEDERAL
QUESTION IN A WAY THAT CONFLICTS WITH APPLICABLE
DECISIONS OF THIS COURT
Supreme Court Rule 10 provides in relevant part as follows:
l

7i

Rule 10
CONSIDERATIONS GOVERNING REVIEW
ON WRIT OF CERTIORARI
(1) A review on writ of certiorari is not a matter of right, but of judicial
discretion. A petition for a writ of certiorari will be granted only when
there are special and important reasons therefore. The following, while
neither controlling nor fiilly measuring the Court’s discretion, indicate
the character of reasons that will be considered:
(a)When a United States court of appeals has rendered a decision
in conflict with the decision of another United States Court of
Appeals on the same matter; or has decided a federal question in
a way in conflict with a state court of last resort; or has so far
departed from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by a lower court, as
to call for an exercise of this Court’s power of supervision.
(b)When a ... United States court of appeals has decided an
important question of federal law which has not been, but should
be, settled by this Court, or has decided a federal question in a
way that conflicts with applicable decision of this Court. ...Id.
Id. Supreme Court Rule 10.1(a), (c)

8

QUESTIONS PRESENTED
WAS HERNANDEZ’ DUE PROCESS RIGHTS VIOLATED WHEN THE
DISTRICT COURT ABUSED ITS DISCRETION IN RELYING ON
HERNANDEZ’ DOMESTIC VIOLENCE PAST IN SENTENCING HIM ON
HIS CURRENT DRUG TRAFFICKING OFFENSE.
During the sentencing hearing, the following statements were presented by the
court:

.?■

THE COURT: All right. Fine. So please stand, Mr. Hernandez. There are a
number of things I want to comment on that are --1 have the guidelines, I have
the applicable guideline range, I've considered all of section 3553 factors. Let
me tell you a number of things that I've been thinking about. First, I start with
what I received last, which is the letters from your two children. They are
*?■ beautiful letters. They are thoughtful, they're personal. They speak well of you,
* Mr. Hernandez. They're heartwarming. And I consider them. And they
; highlight, in a clear and emotionally painful way, and obvious way, the
consequences that -- the harmful consequences that other people suffer when
people go to prison, and the harmful consequences that they, though young,
clearly very perceptive young people, understand that they will suffer while
you're in prison, however long you're in prison. And I give those letters weight.
But there are a number of other things that I consider, too. When I look at the
presentence report, one of the things that you said is you've never done anything
bad to your son, Mr. Arias, and I disagree with that. I think that's incorrect. Mr.
Arias was a young man, who, when he came back to the United States, had no
criminal record. It was you who drew him into the drug distribution, not the
other way around. And he was your son, you had a duty to protect him, to do
right by him in the way these letters describe that you did to your other
children. So I don't say -- and I'm not saying that you were violent to him or
anything like that, but drawing him into the drug conspiracy was not a — was a
bad thing, not a good thing. And it's made worse by the fact that one of the
things he has now is a federal felony conviction. And he was someone who was
your child, he came back to the United States, he hadn't seen you in many years
and, as I pointed out a few moments ago, it's clear he has some sort of cognitive
disability, which makes him more vulnerable. And so with the factual means,
you took advantage of him for your own drug business. So I weigh that in my
mind.

9

I also weigh the — in considering the different factors, the violence that's
described in the presentence report that you perpetrated on - perpetrated
against some of the women in your life at different points. It was serious
violence that's described there.
$ $ $ $ 3|C

So for all those reasons, and considering the factors under section 3553,1 find not only do I find the guideline range an applicable and appropriate range for
this criminal conduct in this case, based on your history, but also that there's an
aspect to this of a substantial public safety factor to the sentence, given what's
in the presentence report regarding the violence and - well, primarily that.
Id. Dkt. 334 at 34-35.
'X

The District Court’s reliance on the unsubstantiated allegations of violence is
inrdirect conflict with the factors that are permitted to be considered in Title 18
U.S.C. § 3553 and Hernandez’ due process rights. Hernandez has a due process
right to be sentenced based on accurate information. Reliability is a central
ingredient of the due process analysis: where the district court sentences a
defendant based on prior acts alleged in the Presentence Investigation Report,
(“PSI”) it must find the government's information sufficiently reliable to determine
by a preponderance of the evidence, that the alleged acts occurred. Where a district
court relies on evidence that substantially increases the sentence, it must take care
in determining the accuracy of that evidence. A criminal defendant has a due
process right to be sentenced based on accurate information. United States v.
Tucker, 404 U.S. 443, 447, 92 S. Ct. 589, 30 L. Ed. 2d 592 (1972). Also, when
Hernandez raised his objections to the PSR’s allegations, the District Court

10

discredited him without inquiring more about the matter. “When I look at the
presentence report, one of the things that you said is you've never done anything
bad to your son, Mr. Arias, and I disagree with that. I think that's incorrect: Dkt.
334 at 34. The court noted in United States v. Marks, 864 F.3d 575 (7th Cir.
2017), that the general rule is that "a sentencing judge may rely on a 2020 U.S.
App. LEXIS 2655, *10 presentence report if it is well-supported and appears
reliable." Id. at 580 (collecting prior cases highlighting the same general rule).
Under those circumstances, the defendant bears the burden of coming forward
with facts demonstrating that the information in the PSR is inaccurate or
unreliable. See id.; see also United States v. Sunmola, 887 F.3d 830, 839 (7th Cir.
2018) ("Only when the defendant's objection creates real doubt as to the reliability
of the information in the PSR does the government have the burden of
independently demonstrating the accuracy of the information."). The Marks court
also took care to caution that where these reliability attributes are altogether absent
and the PSR instead asserts "nothing but a naked or unsupported charge," the
defendant's denial of that information suffices to cast doubt on its accuracy. Marks,
864 F.3d at 580; see also United States v. Moreno-Padilla, 602 F.3d 802, 809 (7th
Cir. 2010) (describing situations in which the general rule does not apply, such as
where the PSR omits crucial information).

11

Hernandez made it clear that the allegations raised in the PSR were inaccurate
as to the allegations he had harmed his Son. Facing an objection, the district court
must take some steps to ensure that the PSI has a modicum of reliability. Cf.
United States v. Robinson, 164 F.3d 1068, 1070 (7th Cir. 1999) ("While it's not
required that a judge hear personally from witnesses under oath at a sentencing
hearing, we think it's not a terribly bad idea to do so when the witness is going to
f

provide the basis for, as here, 97 percent of a defendant's relevant conduct."). It
remains within the district court's discretion to determine that step. The sentencing

1L

record here did not contain enough to find the Probation Officer’s information
sufficiently reliable to influence the final ultimate sentence. Due process requires a
resentencing hearing.
CONCLUSION
* Based on the foregoing, this Court should grant this request for a Writ of
Certiorari and order the Court of Appeals for the First Circuit.
Done this

0//Vday of June 2020.

Fern Ado Hernandez
Register Number: 00130-138
FCI Ray Brook
P.O. Box 900
Ray Brook, NY 12977

12

